SEC.gov |  Value Engineering (VE) Program
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Value Engineering (VE) Program
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
Value Engineering Program
Audit Report No. 260May 2, 1997
Executive Summary
Our audit of the Commission's value engineering (VE) program found that it needs improvement to fully realize the benefits of VE and comply with OMB-Circular A-131. Our recommendations include inserting value engineering clauses into all appropriate contracts over $1 million; designating a senior official to implement the program; training staff in value engineering; and developing annual VE plans and reports.
The Office of the Executive Director and the Office of Administrative and Personnel Management provided written comments (attached) on our draft report. Generally, they concurred with our findings and recommendations.
Scope and Objectives
Our objectives were to validate the accuracy of reported value engineering savings and assess the adequacy of Commission value engineering policies, procedures and implementation of revised Circular A-131. We were unable to validate the accuracy of reported VE savings, because the Commission did not prepare required reports.
During the audit, we interviewed Commission staff, and reviewed relevant documentation, including contract files. The audit was performed between November 1996 and March 1997 in accordance with generally accepted government auditing standards.
Background
OMB Circular A-131, as revised May 21, 1993, states that value engineering is an effective technique for reducing costs, increasing productivity, and improving quality. It can be applied to hardware and software; development, production, and manufacturing; specifications, standards, contract requirements, and other acquisition program documentation; and facilities design and construction.
The Circular states that Federal agencies are to use value engineering as a management tool, where appropriate, to ensure realistic budgets, identify and remove nonessential capital and operating costs, and improve and maintain optimum quality of program and acquisition functions. Agencies are to establish and maintain value engineering programs, which are to be audited by the agencies’ Inspector General.
Audit Results
We found that the Commission's value engineering program needs improvement to fully realize the benefits of VE and comply with OMB-Circular A-131. Value engineering clauses were included in the Commission's largest contract (the EDGAR project) and one other contract, while they were omitted in four contracts over $1 million (the minimum threshold established by Circular A-131). In addition, the Commission has not taken the following actions required by Circular A-131:
Designated a senior management official to coordinate the program;
Developed criteria for identifying projects with the most potential to yield VE savings;
Provided training to all appropriate staff;
Developed annual plans for using VE; and
Reported annually to the Office of Management and Budget (OMB) on VE activities.
Commission officials indicated that opportunities for VE savings in ADP projects are limited at this agency, and that guidance for VE in construction contracts is more extensive than that for ADP projects.
One Commission official is currently participating in an Office of Management and Budget VE Task Group, which plans to improve VE guidance. According to this official, all Commission leasing construction build-out and renovation contracts contained value engineering clauses. Also, he indicated that value engineering was used many times in construction contracts. For example, he stated that the headquarters lighting retro-fit energy project, completed in September 1996, improved lighting quality. With a pay-back of .88 years, it generates energy savings of over $125,000 per year.
Recommendation A
The Office of the Executive Director should designate a senior management official to coordinate the VE program.
Recommendation B
The Office of Administrative and Personnel Management should develop procedures to ensure that VE clauses are inserted into all appropriate contracts.
Recommendation C
The Office of Administrative and Personnel Management should issue guidance on the VE program, including criteria for identifying projects with the most potential to yield VE savings.
Recommendation D
The Office of Administrative and Personnel Management should provide VE training to appropriate staff.
Recommendation E
The Office of Administrative and Personnel Management should develop annual plans for using VE.
Recommendation F
The Office of Administrative and Personnel Management should submit required annual reports on VE activities to OMB.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us